Office of Material Loss Reviews
Report No. MLR-10-022


Material Loss Review of Integrity Bank,
Jupiter, Florida




                                  February 2010
                                        Executive Summary

                                        Material Loss Review of Integrity Bank, Jupiter,
                                        Florida
                                                                                           Report No. MLR-10-022
                                                                                                   February 2010

Why We Did The Audit
On July 31, 2009, the Florida Office of Financial Regulation (OFR) closed Integrity Bank, Jupiter, Florida
(Integrity-Jupiter) and named the FDIC as receiver. On August 28, 2009, the FDIC notified the Office of
Inspector General (OIG) that Integrity-Jupiter’s total assets at closing were $110.3 million and the estimated
loss to the Deposit Insurance Fund (DIF) was $45.5 million. As of December 31, 2009, the estimated loss to
the DIF had decreased to $36.9 million. As required by section 38(k) of the Federal Deposit Insurance (FDI)
Act, the OIG conducted a material loss review of the failure.

The objectives were to (1) determine the causes of failure for Integrity-Jupiter and the resulting material loss to
the DIF and (2) evaluate the FDIC’s supervision of Integrity-Jupiter, including the FDIC’s implementation of
the Prompt Corrective Action (PCA) provisions of section 38 of the FDI Act.


Background
Integrity-Jupiter was chartered as a state nonmember institution on July 12, 2004. The institution operated a
single office in Jupiter, which is a coastal community located in Palm Beach County, Florida. Integrity-
Jupiter’s lending activities focused primarily on commercial real estate, with an emphasis on acquisition,
development, and construction (ADC) in Florida and Georgia. A significant portion of the institution’s loan
portfolio consisted of out-of-territory loan participations acquired from the Integrity Bank of Alpharetta,
Georgia (Integrity-Alpharetta), which failed on August 29, 2008. Integrity-Jupiter was privately held and its
Board directors collectively controlled approximately 15 percent of the institution’s outstanding stock as of
June 30, 2008. No individual shareholder controlled more than 9 percent of Integrity-Jupiter’s stock, and the
institution’s shares were widely held.

Integrity-Jupiter had no affiliates as defined under the Bank Holding Company Act and section 23A of the
Federal Reserve Act. However, the institution did have a significant relationship with Integrity-Alpharetta.
Specifically, some of Integrity-Jupiter’s shareholders and directors were also shareholders, directors, and/or
officers of Integrity-Alpharetta and/or its parent bank holding company, Integrity Bancshares, Inc. In addition,
certain directors of Integrity Bancshares, Inc. played an instrumental role in establishing Integrity-Jupiter and
modeled the institution’s business strategy, policies, and practices after Integrity-Alpharetta. Integrity-
Alpharetta also provided significant managerial and operational assistance to Integrity-Jupiter during its initial
years of operation, and an eventual merger between the two institutions was envisioned.


Audit Results
Causes of Failure and Material Loss

Integrity-Jupiter failed primarily because of ineffective oversight by the institution’s Board and management.
Turnover and extended vacancies in the positions of President and Chief Executive Officer and Senior Lending
Officer during the short life of the institution contributed to the weak oversight. In addition, the Board and
management did not effectively manage the risks associated with the institution’s heavy concentration in ADC
loans. Weak ADC loan underwriting and administration, particularly with respect to out-of-territory loan
participations acquired from Integrity-Alpharetta, were contributing factors in Integrity-Jupiter’s failure.

The lack of effective Board and management oversight, together with a significant concentration in risky ADC
loans, made the institution vulnerable when the Florida and Georgia real estate markets began to decline in
2007. Notably, a Board dispute that began in 2007 over control of the institution presented a significant



                                   To view the full report, go to www.fdicig.gov
   Executive Summary
                                         Material Loss Review of Integrity Bank, Jupiter,
                                         Florida
                                                                                             Report No. MLR-10-022
                                                                                                     February 2010

distraction when the Board’s undivided attention was needed on the institution’s deteriorating financial
condition. By 2008, the quality of Integrity-Jupiter’s loan portfolio had become critically deficient, with
additional deterioration continuing into 2009. The associated losses and provisions depleted Integrity-Jupiter’s
capital, rendering the institution insolvent. OFR closed Integrity-Jupiter on July 31, 2009 because the
institution was unable to raise sufficient capital to support its operations or find a suitable acquirer.

The FDIC’s Supervision of Integrity-Jupiter

The FDIC, in coordination with OFR, provided ongoing supervisory oversight of Integrity-Jupiter through
regular on-site risk management examinations, visitations, and offsite monitoring activities. In addition,
because Integrity-Jupiter was a newly chartered institution, it was subject to higher capital requirements and
more frequent examinations during its first 3 years of operation. Through its supervisory efforts, the FDIC
identified key risks in Integrity-Jupiter’s operations and brought these risks to the attention of the institution’s
Board and management.

Although examiners raised concerns about Integrity-Jupiter’s management in the years preceding the failure,
the FDIC determined that the institution’s management was generally satisfactory prior to the July 2008
examination, as reflected in the supervisory component ratings of “2” for management. In retrospect, a
stronger supervisory response to the risks associated with Integrity-Jupiter’s management practices at earlier
examinations may have been prudent. Such a response could have included lowering the institution’s
supervisory component rating for management and requiring the institution to develop a management
succession plan. The FDIC’s supervisory approach for addressing Integrity-Jupiter’s ADC concentration was
generally reasonable. However, a lesson learned with respect to ADC concentrations is that early supervisory
intervention is prudent, even when an institution has significant capital and few or no classified assets. Finally,
while examiners noted that Integrity-Jupiter had materially deviated from its business plan during the June
2007 examination, the deviation should have been noted and been the subject of corrective action in earlier
examinations.

In recognition of the elevated risk that newly-chartered institutions pose to the DIF, the FDIC recently
extended their de novo periods from 3 to 7 years for purposes of on-site examinations, capital maintenance,
and other requirements, including that institutions obtain prior approval from the FDIC before making material
changes in their business plans. The FDIC also established procedures to better communicate and follow up
on risks and deficiencies identified during examinations.

Based on the supervisory actions taken with respect to Integrity-Jupiter, the FDIC properly implemented
applicable PCA provisions of section 38 of the FDI Act. However, PCA’s role in the failure of Integrity-
Jupiter was limited because capital was a lagging indicator of the institution’s financial health.


Management Response
The Director, Division of Supervision and Consumer Protection (DSC), provided a written response to a draft
of this report on February 24, 2010. In the response, DSC reiterated the OIG’s conclusions regarding the
causes of Integrity-Jupiter’s failure and cited several supervisory activities, discussed in the report, that were
undertaken to address risks at the institution prior to its failure. DSC also noted that it had recently issued
guidance to institutions and examiners extending the de novo period for newly-chartered institutions from 3 to
7 years and had established procedures to more formally communicate and follow up on risks and deficiencies
identified during examinations.




                                   To view the full report, go to www.fdicig.gov
                                  Contents
                                                                     Page
Background                                                             2

Causes of Failure and Material Loss                                    3
  Board Oversight and Management Turnover                              3
  ADC Loan Concentration                                               5
  Risk Management Practices Associated with ADC Loans                  8

The FDIC’s Supervision of Integrity-Jupiter                           10
  Supervisory History                                                 10
  Supervisory Response to Management Issues                           12
  Supervisory Oversight of ADC Loan Concentration                     13
  Business Plan Deviation                                             15
  Implementation of PCA                                               15

Corporation Comments                                                  17

Appendices 
  1. Timeline of Key Management Events                                18
  2. Objectives, Scope, and Methodology                               20
  3. Glossary of Terms                                                22
  4. Acronyms                                                         25
  5. Corporation Comments                                             26

Tables
   1. Selected Financial Information for Integrity-Jupiter             3
   2. On-site Examinations and Visitations of Integrity-Jupiter       11
   3. Integrity-Jupiter’s Capital Levels                              16

Figures
   1. Composition and Growth of Integrity-Jupiter’s Loan Portfolio     6
   2. Integrity-Jupiter’s ADC Concentration Compared to Peer Group     7
Federal Deposit Insurance Corporation                                               Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General


DATE:                                     February 26, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Integrity Bank, Jupiter, Florida
                                          (Report No. MLR-10-022)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Integrity
Bank, Jupiter, Florida (Integrity-Jupiter). The Florida Office of Financial Regulation
(OFR) closed the institution on July 31, 2009, and named the FDIC as receiver. On
August 28, 2009, the FDIC notified the OIG that Integrity-Jupiter’s total assets at closing
were $110.3 million and that the estimated loss to the Deposit Insurance Fund (DIF) was
$45.5 million. As of December 31, 2009, the estimated loss to the DIF had decreased to
$36.9 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of Integrity-
Jupiter’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision2 of Integrity-Jupiter, including the FDIC’s implementation of the PCA
provisions of section 38 of the FDI Act. This report presents the FDIC OIG’s analysis of
Integrity-Jupiter’s failure and the FDIC’s efforts to ensure that the Board of Directors
(Board) and management operated the institution in a safe and sound manner. The report
does not contain formal recommendations. Instead, as major causes, trends, and common
1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
characteristics of institution failures are identified in our material loss reviews, we will
communicate those to FDIC management for its consideration. As resources allow, we
may also conduct more in-depth reviews of specific aspects of the FDIC’s supervision
program and make recommendations as warranted. Appendix 1 contains a timeline of
key management events pertaining to Integrity-Jupiter; Appendix 2 contains details on
our objectives, scope, and methodology; Appendix 3 contains a glossary of terms; and
Appendix 4 contains a list of acronyms. Appendix 5 contains the Corporation’s
comments on this report.


Background
Integrity-Jupiter was chartered as a state nonmember institution on July 12, 2004. The
institution operated a single office in Jupiter, which is a coastal community located in
Palm Beach County, Florida. Integrity-Jupiter’s lending activities focused primarily on
commercial real estate (CRE), with an emphasis on acquisition, development, and
construction (ADC) in Florida and Georgia. A significant portion of the institution’s loan
portfolio consisted of out-of-territory loan participations acquired from the Integrity Bank
of Alpharetta, Georgia (Integrity-Alpharetta), which failed on August 29, 2008.
Integrity-Jupiter was privately held and its Board directors collectively controlled
approximately 15 percent of the institution’s outstanding stock as of June 30, 2008. No
individual shareholder controlled more than 9 percent of Integrity-Jupiter’s stock, and the
institution’s shares were widely held.

Integrity-Jupiter had no affiliates as defined under the Bank Holding Company Act and
section 23A of the Federal Reserve Act.3 However, the institution did have a significant
relationship with Integrity-Alpharetta. Specifically, some of Integrity-Jupiter’s
shareholders and directors were also shareholders, directors, and/or officers of Integrity-
Alpharetta and/or its parent bank holding company, Integrity Bancshares, Inc. In
addition, certain directors of Integrity Bancshares, Inc. played an instrumental role in
establishing Integrity-Jupiter and modeled the institution’s business strategy, policies,
and practices after Integrity-Alpharetta. Integrity-Alpharetta also provided significant
managerial and operational assistance to Integrity-Jupiter during its initial years of
operation, and an eventual merger between the two institutions was envisioned. Table 1
summarizes selected financial information for Integrity-Jupiter for the quarter ended
June 30, 2009 and for the 4 preceding calendar years.




3
    See the glossary of terms for more information about affiliates.


                                                        2
Table 1: Selected Financial Information for Integrity-Jupiter
 Financial Measure ($000s)           Jun - 09 Dec - 08    Dec - 07      Dec - 06     Dec - 05
 Total Assets                        105,298  129,448      123,970       105,775       73,640
 Gross Loans and Leases               70,946   89,587      98,100        82,789        55,741
 Securities                           23,230   30,329      17,970        14,422        7,392
 Deposits                             98,511  107,848      105,249       89,956        58,497
 Net Income (Loss)                    10,968   5,131        1,063          435          496
Source: Uniform Bank Performance Reports (UBPR) and Consolidated Reports of Condition and Income
(Call Report) for Integrity-Jupiter.



Causes of Failure and Material Loss
Integrity-Jupiter failed primarily because of ineffective oversight by the institution’s
Board and management. Turnover and extended vacancies in the positions of President
and Chief Executive Officer (CEO) and Senior Lending Officer (SLO) during the short
life of the institution contributed to the weak oversight. In addition, the Board and
management did not effectively manage the risks associated with the institution’s heavy
concentration in ADC loans. Weak ADC loan underwriting and administration,
particularly with respect to out-of-territory loan participations acquired from Integrity-
Alpharetta, were contributing factors in Integrity-Jupiter’s failure.

The lack of effective Board and management oversight, together with a significant
concentration in risky ADC loans, made the institution vulnerable when the Florida and
Georgia real estate markets began to decline in 2007. Notably, a Board dispute that
began in 2007 over control of the institution presented a significant distraction when the
Board’s undivided attention was needed on the institution’s deteriorating financial
condition. By 2008, the quality of Integrity-Jupiter’s loan portfolio had become critically
deficient, with additional deterioration continuing into 2009. The associated losses and
provisions depleted Integrity-Jupiter’s capital, rendering the institution insolvent. OFR
closed Integrity-Jupiter on July 31, 2009 because the institution was unable to raise
sufficient capital to support its operations or find a suitable acquirer.

Board Oversight and Management Turnover

The DSC Risk Management Manual of Examination Policies (Examination Manual)
states that the quality of an institution’s management, including its Board and executive
officers, is perhaps the single most important element in the successful operation of an
institution. According to the Examination Manual, the Board has overall responsibility
and authority for formulating sound policies and objectives for the institution and for
effectively supervising the institution’s affairs. Executive officers, such as the President
and CEO, SLO, and Chief Financial Officer, have primary responsibility for managing
the day-to-day operations and affairs of the institution.

The knowledge, experience, and involvement of Board directors and executive officers
are especially critical for newly-chartered institutions (also referred to as de novo
institutions), such as Integrity-Jupiter. This point was underscored in a 2004 study


                                                3
conducted by the FDIC, which found that problems occurring during the first 6 years of
an institution’s operation were predominantly attributable to weak oversight by the Board
and management inexperience and turnover.4 As described below, a lack of effective
oversight by Integrity-Jupiter’s Board and excessive turnover of executive officers were
key factors in the institution’s failure.

Board Oversight

Integrity-Jupiter’s Board did not provide effective oversight of the institution’s
operations. As discussed more fully in subsequent sections of this report, the Board did
not effectively manage the risks associated with the institution’s heavy ADC loan
concentration or ensure appropriate due diligence, loan underwriting, and credit
administration practices related to its ADC loans.

Further, a dispute among Integrity-Jupiter’s Board directors over control of the institution
presented a significant distraction when management’s attention should have been more
focused on the institution’s deteriorating financial condition. In mid to late 2007, tension
developed among certain Board directors regarding the overall direction of the institution,
including its focus on ADC lending and its plans to build a new branch location. At that
time, Integrity-Jupiter’s real estate lending markets were deteriorating and the quality of
the institution’s ADC loans was beginning to decline. Dissent among the Board directors
culminated in a special shareholder action on December 12, 2007 during which 6 of the
Board’s 10 directors, including its Chairman, were removed and 4 new directors were
elected.

In the months that followed the special shareholder action, several of Integrity-Jupiter’s
former Board directors disputed their removal from the Board. Among other things, the
former directors requested that OFR deny the new Board’s application to acquire control
of the institution5 or grant a hearing during which the merits of the application could be
disputed. The former directors also sent a letter to the institution’s shareholders stating
that the change in Board control was not in the best interests of the institution’s
shareholders or its customers, and requesting shareholder support for their reinstatement
to the Board. Integrity-Jupiter’s new Board spent valuable time in 2008 addressing
regulatory concerns related to the manner in which the change in control was handled and
defending the new Board’s structure and business plans with shareholders, presenting a
distraction from the institution’s financial problems. Adding to the management
instability at Integrity-Jupiter during that time was the resignation of two Board directors
in April 2008 and the resignation of the President and CEO in May 2008.

4
  The study included 58 de novo institutions established between 1993 and 2003 that were troubled (i.e.,
had composite supervisory ratings of “3” or worse) prior to the end of the second calendar year of operation
and 75 young institutions established between 1993 and 2003 that were troubled for the first time between
the fourth and sixth year of operation.
5
  Florida statute requires that any person or group of persons seeking to acquire a controlling interest in a
Florida-chartered institution first provide OFR with an Application for Certificate of Approval to Purchase
or Acquire a Controlling Interest in a State Bank or Trust Company. The FDIC Rules and Regulations
require a similar advance filing for state nonmember institutions. See Change in Control in the glossary of
terms for more information.


                                                     4
OFR never approved the new Board’s application to acquire control of the institution. In
February 2009, the new Board withdrew the application because it was no longer
considered relevant in light of the material events and changes that had occurred at the
institution since December 2007.

Management Turnover

The position of President and CEO changed numerous times during Integrity-Jupiter’s
5 years of operation and remained vacant for extended periods of time. Of note, the
institution operated without a full-time President and CEO between May 2005 and May
2006. During this period, executive officers from Integrity-Alpharetta, including its
President and CEO, traveled to Integrity-Jupiter on a rotational basis to assist in
managing the day-to-day affairs of the institution. Further, during periods when
Integrity-Jupiter did have a full-time President and CEO, the individual holding the
position was often required to assume additional SLO responsibilities due to frequent
turnover in the SLO position. Notably, Integrity-Jupiter was without a full-time SLO
during the first 9 months of the institution’s operation and during the periods May 2006
through July 2007 and July 2008 through July 2009. Appendix 1 contains a timeline
illustrating key management events pertaining to Integrity-Jupiter, including those
involving changes in its executive officer positions.

Tension between Integrity-Jupiter’s Board directors and executive officers was a
contributing factor in the management turnover that occurred at the institution. At least
two individuals who served as President and CEO resigned due to tension with the Board.
In addition, a third-party management evaluation performed on behalf of Integrity-Jupiter
in March 2009 found that many of the problems facing the institution may have stemmed
from the failure of the Board and executive officers to accept input from subordinates that
differed from their own beliefs and paradigms. The management evaluation noted that
staff had left the organization because of those differences.

ADC Loan Concentration

From the time it was chartered until its failure in July 2009, almost all of Integrity-
Jupiter’s loans pertained to real estate. At year-end 2008, nearly 100 percent of the loan
portfolio was invested in real estate, placing the institution in the 99th percentile of its
peer group6 average for concentrations in real estate loans based on average gross loans
and leases. A significant portion of the real estate loans involved ADC and included both
locally-originated loans as well as loan participations purchased from other institutions,
including Integrity-Alpharetta. As of March 31, 2007, approximately $22.1 million (or
25 percent) of Integrity-Jupiter’s $89.4 million loan portfolio consisted of out-of-territory
loan participations purchased from Integrity-Alpharetta. Figure 1 illustrates the general
composition and growth of Integrity-Jupiter’s loan portfolio.

6
   Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. Integrity-Jupiter’s peer group included
institutions with assets between $100 million and $300 million in a metropolitan area with two or fewer full
service offices.


                                                     5
Figure 1: Composition and Growth of Integrity-Jupiter’s Loan Portfolio


                                           $100.0
                                            $90.0
  G ros s Loans and Leas es (M illions )


                                            $80.0
                                                                                 $57.3
                                            $70.0                                         $46.5
                                                                        $46.9
                                            $60.0                                                  $32.8
                                                                                                             ADC
                                            $50.0
                                                               $28.5                                         Other CRE
                                            $40.0
                                                                                                             All Other Loans
                                            $30.0                       $24.2
                                                                                 $28.8    $31.6
                                                                                                   $30.2
                                            $20.0      $3.1    $18.3

                                            $10.0     $4.8      $8.9    $11.7    $12.0    $11.5     $8.0
                                             $0.0     $2.6
                                                    Dec-04    Dec-05   Dec-06   Dec-07   Dec-08   Jun-09
                                                                        Period Ended

Source: Call Reports for Integrity-Jupiter.

In December 2006, the FDIC, the Office of the Comptroller of the Currency, and the
Board of Governors of the Federal Reserve System issued joint guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices.
Although the guidance does not establish specific CRE lending limits, it does define
criteria that the agencies use to identify institutions potentially exposed to significant
CRE concentration risk. According to the guidance, an institution that has experienced
rapid growth in CRE lending, has notable exposure to a specific type of CRE, or is
approaching or exceeds the following supervisory criteria may be identified for further
supervisory analysis of the level and nature of its CRE concentration risk:

                                •          Total reported loans for construction, land development, and other land (referred
                                           to in this report as ADC) representing 100 percent or more of total capital or

                                •          Total CRE loans representing 300 percent or more of total capital where the
                                           outstanding balance of the institution’s CRE loan portfolio has increased by
                                           50 percent or more during the prior 36 months.

As of December 31, 2007, Integrity-Jupiter’s non-owner occupied CRE loans represented
552 percent of the institution’s total capital. Further, approximately 58 percent of
Integrity-Jupiter’s loan portfolio at year-end 2007 consisted of ADC loans, representing
381 percent of the institution’s total capital. Both of these levels were significantly
higher than the levels defined in the 2006 guidance as possibly warranting further
supervisory analysis. Integrity-Jupiter’s CRE and ADC concentrations were allowed to
reach high levels, in part, because the institution had not established reasonable
concentration limits. Specifically, the institution’s loan policy, revised and approved by
the Board in April 2008, allowed up to 750 percent of the institution’s Tier 1 Capital to


                                                                                   6
be invested in ADC loans. Integrity-Jupiter’s concentration in ADC loans, together with
weak risk management practices related to these loans discussed later in this report, made
the institution vulnerable when its lending markets began to decline in 2007. Figure 2
illustrates Integrity-Jupiter’s ADC concentration relative to its peer group average.

Figure 2: Integrity-Jupiter’s ADC Concentration Compared to Peer Group

                               500%
                                                                                                       429%*
                               450%               Integrity
                                                                                               381%
  ADC Loans to Total Capital




                               400%               Peer Group
                               350%
                                                                              297%
                               300%
                               250%                        199%
                               200%                                                                     141%
                               150%                                      120%                  140%
                               100%                           73%
                               50%        21%
                                                23%
                                0%
                                           04




                                                           05




                                                                         06




                                                                                          07




                                                                                                       08
                                         c-




                                                         c-




                                                                       c-




                                                                                        c-




                                                                                                     c-
                                      De




                                                      De




                                                                    De




                                                                                     De




                                                                                                  De
                                                                     Period Ended

Source: UBPRs for Integrity-Jupiter.
* The increase in the ADC loan concentration in December 2008 resulted from a decline in Integrity-Jupiter’s
capital rather than growth in ADC lending.

Integrity-Jupiter did not have any classified assets until the June 2007 examination, at
which time examiners classified a total of $4.1 million in assets (or 25 percent of Tier 1
Capital and the Allowance for Loan and Lease Losses (ALLL)). This moderate increase
in classified assets reflected a decline in the institution’s local and out-of-territory lending
markets. Based on negative trends in its lending markets, Integrity-Jupiter decided to
discontinue purchasing loan participations from Integrity-Alpharetta and significantly
reduced its ADC lending activities. Integrity-Jupiter also increased its ALLL in the
fourth quarter of 2007 and the second quarter of 2008 by $1.7 million and $1 million,
respectively, bringing the institution’s ALLL to approximately 3.1 percent of total loans
as of June 30, 2008.

By July 2008, Integrity-Jupiter’s asset quality had become critically deficient, with
adverse classifications totaling $26.2 million, or 169 percent of Tier 1 Capital and the
ALLL. Approximately $25.7 million of the $26.2 million in adverse classifications
pertained to loans, with the majority attributed to ADC. Based on the results of a joint
FDIC and OFR visitation in April 2009, and updated appraisal information received in
June 2009, examiners determined that Integrity-Jupiter’s financial condition had further
deteriorated and that the institution was no longer viable absent a large capital infusion.
According to Integrity-Jupiter’s Call Report for the quarter ended June 30, 2009, the
institution had negative Tier 1 Capital of approximately $1.5 million after recognizing a


                                                                              7
loss of almost $11 million during the first 6 months of 2009, again largely attributable to
ADC loans.

Risk Management Practices Associated with ADC Loans

Weaknesses in Integrity-Jupiter’s due diligence, loan underwriting, and credit
administration practices were contributing factors in the ADC loan quality problems that
developed when the institution’s real estate lending markets deteriorated in 2007 and
2008. A brief description of these weaknesses follows.

Due Diligence for Out-of-Territory Loan Participations

Shortly after it opened in July 2004, Integrity-Jupiter began purchasing out-of-territory
loan participations from Integrity-Alpharetta as a means of growing its loan portfolio. As
of March 31, 2007, Integrity-Jupiter held 12 such participations valued at $22.1 million
(or 144 percent of Tier 1 Capital). All of these loan participations were secured by
properties in Georgia, with the exception of one loan valued at $3 million that was
secured by land in North Carolina. According to the Examination Manual, institutions
purchasing loan participations must make a thorough, independent evaluation of the
transactions and the risks involved before committing any funds. Institutions should also
apply the same standards of prudence, credit assessment, and approval criteria that would
be employed if the purchasing organization were originating the loan.

Integrity-Jupiter did not perform proper due diligence before it purchased the loan
participations from Integrity-Alpharetta. For example, Integrity-Jupiter did not perform
global cash flow analyses on borrowers and guarantors to assess their overall debt and the
status of their other real estate projects. Our review of examination reports for Integrity-
Alpharetta found that it, too, did not perform global cash flow analyses when originating
some of the same loan participations held by Integrity-Jupiter. Integrity-Jupiter also
relied on Integrity-Alpharetta to review property appraisals on the loan participations
instead of performing its own independent appraisal reviews. Poor communication
between Integrity-Jupiter and Integrity-Alpharetta further exacerbated the risks associated
with the loan participations. For example, Integrity-Alpharetta executed forbearance
agreements with several borrowers without first consulting with Integrity-Jupiter or
providing Integrity-Jupiter with the details of the agreements.

Integrity-Jupiter’s decision to purchase out-of-territory loan participations also
represented a material deviation from the institution’s business plan. Specifically,
Integrity-Jupiter’s business plan limited the institution’s lending area to a 5-mile radius
around Jupiter, and the plan did not address loan participations. Further, the FDIC’s
order approving Integrity-Jupiter’s application for federal deposit insurance included a
number of conditions. One such condition was that the institution operate within the
parameters of its business plan and, during the first 3 years of operation, notify the FDIC
of any proposed major deviation or material change from the plan 60 days before
consummation of the change. However, Integrity-Jupiter did not formally notify the
FDIC of its departure from the business plan as prescribed in the order. Loan
participations purchased from Integrity-Alpharetta accounted for approximately


                                             8
$11.4 million (or 44 percent) of the $25.7 million in adverse loan classifications
identified during the July 2008 examination.

Loan Underwriting

The June 2007 examination report noted a number of weak loan underwriting practices
that impaired the quality of the institution’s ADC loans, particularly the loan
participations from Integrity-Alpharetta. For example, Integrity-Jupiter did not establish
or implement:

    •   Appropriate controls over the disbursement of funds for construction projects
        (e.g., procedures for obtaining current project budgets and timelines, and
        appropriate requirements for pre-lease, pre-sale, and lot release).

    •   Formal policies or procedures for controlling the use of interest reserves on ADC
        loans.

    •   Procedures for conducting global cash flow analyses on borrowers and
        guarantors of large or complex loans.

    •   Procedures for “rate shocking” individual loans to determine how an increase in
        interest rates could affect a borrower’s cash flow.

Credit Administration

The June 2007 examination report also noted weak credit administration practices that
further impaired the quality of Integrity-Jupiter’s ADC loans. In some cases, these
weaknesses were caused by poor communication with Integrity-Alpharetta. The credit
administration weaknesses included, but were not limited to:

   •    A lack of current property appraisals and financial information (e.g., financial
        statements and tax returns) for borrowers and guarantors. These weaknesses were
        particularly prevalent for the loan participations purchased from Integrity-
        Alpharetta.

   •    Allowing the continued use of interest reserves on both locally-originated loans
        and participations from Integrity-Alpharetta when the underlying construction
        project was halted or experiencing other significant problems. Such practices
        resulted in a delayed recognition of performance problems on some loans.

   •    A lack of adequate economic and real estate market analysis for the institution’s
        out-of-territory lending markets.

The above ADC loan underwriting and administration weaknesses, and in particular the
lack of due diligence related to the out-of-territory loan participations acquired
from Integrity-Alpharetta, were contributing factors in Integrity-Jupiter’s failure.



                                             9
The FDIC’s Supervision of Integrity-Jupiter
The FDIC, in coordination with OFR, provided ongoing supervisory oversight of
Integrity-Jupiter through regular on-site risk management examinations, visitations, and
offsite monitoring activities. In addition, because Integrity-Jupiter was a newly-chartered
institution, it was subject to higher capital requirements and more frequent examinations
during its first 3 years of operation. Through its supervisory efforts, the FDIC identified
key risks in Integrity-Jupiter’s operations and brought these risks to the attention of the
institution’s Board and management.

Although examiners raised concerns about Integrity-Jupiter’s management in the years
preceding the failure, the FDIC determined that the institution’s management was
generally satisfactory prior to the July 2008 examination, as reflected in the supervisory
component ratings of “2” for management.7 In retrospect, a stronger supervisory
response to the risks associated with Integrity-Jupiter’s management at earlier
examinations may have been prudent. Such a response could have included lowering the
institution’s supervisory component rating for management and requiring the institution
to develop a management succession plan. The FDIC’s supervisory approach for
addressing Integrity-Jupiter’s ADC concentration was generally reasonable. However, a
lesson learned with respect to ADC concentrations is that early supervisory intervention
is prudent, even when an institution has significant capital and few or no classified assets.
Finally, while examiners noted that Integrity-Jupiter had materially deviated from its
business plan during the June 2007 examination, the deviation should have been noted
and been the subject of corrective action at earlier examinations.

The FDIC recently issued guidance to institutions and examiners to better address the
types of risks that existed at Integrity-Jupiter. Specifically, in recognition of the elevated
risk that newly chartered institutions pose to the DIF, the FDIC extended their de novo
periods from 3 to 7 years for purposes of on-site examinations, capital maintenance, and
other requirements, including that the institutions obtain prior approval from the FDIC
before making material changes in their business plans. The FDIC also established
procedures to better communicate and follow up on risks and deficiencies identified
during examinations.

Supervisory History

The FDIC and OFR conducted five on-site risk management examinations and three
visitations of Integrity-Jupiter during the 5 years that the institution was in operation.
Table 2 on the following page summarizes key supervisory information for these
examinations and visitations.
7
  Pursuant to the Uniform Financial Institutions Rating System (UFIRS), federal and state regulators assign
supervisory ratings to financial institutions based on the results of safety and soundness examinations and
other supervisory activities. Ratings consist of a “composite” rating reflecting the institution’s overall
financial condition and operations and six “component” ratings represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Ratings are assigned on a scale of 1 to 5, with 1 representing the least
supervisory concern and 5 representing the greatest supervisory concern.


                                                    10
Table 2: On-site Examinations and Visitations of Integrity-Jupiter
    Examination         Type of                                   Supervisory           Informal or Formal
     Start Date       Examination            Regulator              Ratings               Actions Taken*
      2/7/2005      Risk Management            OFR                  122322/2           None
      8/8/2005      Risk Management             FDIC                122322/2           None
     6/19/2006      Risk Management             OFR                 122322/2           None
     6/11/2007      Risk Management             FDIC                122322/2           None
     2/21/2008          Visitation              FDIC                   n/a             None
     7/14/2008      Risk Management             OFR                 354524/4           C&D
      4/6/2009          Visitation              FDIC                555544/5           (see C&D above)
      6/4/2009          Visitation              OFR                    n/a             (see C&D above)
Source: OIG analysis of examination reports and information in the FDIC’s Virtual Supervisory Information
         on the Net system for Integrity-Jupiter.
* Informal enforcement actions often take the form of Bank Board Resolutions or Memoranda of
Understanding. Formal enforcement actions often take the form of Cease and Desist (C&D) orders, but
under severe circumstances can also take the form of insurance termination proceedings.

The February 2008 visitation was conducted in response to the special shareholder action
in December 2007 that restructured Integrity-Jupiter’s Board. As part of the February
2008 visitation, the FDIC also assessed the overall financial status of the institution. The
April 2009 and June 2009 visitations were conducted to review the status of certain
problem loans and to assess the impact that these loans were having on the institution’s
financial condition. The FDIC’s offsite monitoring procedures generally consisted of
contacting the institution’s management from time to time to discuss current and
emerging business issues and using automated tools8 to help identify potential
supervisory concerns. The FDIC’s offsite monitoring procedures indicated that an
increase in Integrity-Jupiter’s non-accrual loans and provision expense in December 2007
was negatively affecting the quality of the institution’s assets.

Based on the results of the July 2008 examination, the FDIC and OFR determined that
Integrity-Jupiter’s asset quality was critically deficient and that the Board and
management were not providing effective oversight and guidance to the institution.
Integrity-Jupiter entered into a stipulation and consent to the issuance of a C&D by OFR
on November 14, 2008. The FDIC separately executed an addendum to the C&D
acknowledging the order. The addendum stated that its execution represented a
commitment to the FDIC by the institution’s Board to comply with the terms of the
stipulation and the order. Among other things, the C&D required Integrity-Jupiter to:

      •   Identify and recruit new Board directors with sufficient expertise to return the
          institution to a safe and sound condition.

8
  The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions. Two
such tools are the Statistical CAMELS Offsite Rating (SCOR) system and the Growth Monitoring System
(GMS). Both tools use statistical techniques and Call Report data to identify potential risks, such as
institutions likely to receive a supervisory downgrade at the next examination or institutions experiencing
rapid growth and/or a funding structure highly dependent on non-core funding sources.


                                                     11
   •   Engage an outside firm to review the institution’s management and determine
       whether the institution is adequately staffed by qualified personnel.

   •   Submit a management succession plan covering all key officer positions.

   •   Submit a capital plan for maintaining a Tier 1 Leverage Capital ratio, Tier 1 Risk-
       Based Capital ratio, and a Total Risk-Based Capital ratio of at least 8 percent,
       10 percent, and 12 percent, respectively.

   •   Submit a plan for reducing the institution’s concentration risk.

The capital ratios required by the C&D were higher than the minimum levels for Well
Capitalized institutions as defined in Part 325, Capital Maintenance, of the FDIC Rules
and Regulations. The higher capital levels reflected the institution’s elevated risk profile.
In addition, the C&D defined specific timeframes for meeting its requirements and
directed the institution to submit periodic progress reports to the FDIC and OFR
describing compliance with the order. Based on the results of the April 2009 visitation,
and updated appraisal information received in June 2009, the FDIC and OFR determined
that Integrity-Jupiter’s financial condition had further deteriorated. Examiners
determined that after the institution charged off all of the assets (or portions thereof) that
had been classified as loss during the visitation, the institution’s capital would fall to
approximately negative $3 million, rendering the institution imminently insolvent. OFR
closed Integrity-Jupiter on July 31, 2009 because the institution was unable to raise
sufficient capital to support its operations or find a suitable acquirer.

Supervisory Response to Management Issues

The FDIC, in coordination with OFR, closely monitored the activities of Integrity-
Jupiter’s Board and the changes in the institution’s executive officers in the years
preceding the failure. Prior to the July 2008 examination, the FDIC and OFR raised
numerous concerns regarding the institution’s management practices. Such concerns
included, but were not limited to, the following:

   •   In August 2005, OFR notified Integrity-Jupiter’s Board Chairman of several
       management concerns, including the heavy influence that Integrity-Alpharetta
       was having on Integrity-Jupiter’s operations. At that time, Integrity-Alpharetta
       was providing significant managerial and operational assistance to Integrity-
       Jupiter without a written agreement.

   •   In February 2006, OFR notified Integrity-Jupiter’s Board of an ongoing concern
       that the institution continued to operate without the leadership of a President and
       CEO. The notification explained that the ultimate success of a newly-chartered
       institution depends heavily upon the knowledge and expertise of its President and
       CEO and other executive officers.




                                              12
   •   The June 2006 examination report noted that while Integrity-Jupiter had recently
       filled a year-long vacancy in the President and CEO position, the resume of the
       individual promoted into the position had “a lack of operational expertise, which
       is crucial to the management of a new community bank.”

   •   The June 2007 examination report stated that Integrity-Jupiter’s President and
       CEO was required to assume the duties of SLO and that such additional duties
       were taking time away from managing the day-to-day operations of the
       institution. The report also noted that the institution had materially deviated from
       its business plan when it purchased out-of-territory loan participations from
       Integrity-Alpharetta.

   •   In January 2008, OFR hand-delivered a letter demanding that Integrity-Jupiter
       submit a completed change in control application. Under a Florida statute, the
       application was required to be submitted before the change in control took place.

   •   In April 2008, an OFR examiner advised Integrity-Jupiter’s Board Chairman that
       the Board’s decision to place the President and CEO on leave was not handled
       properly. During this same month, the FDIC notified Integrity-Jupiter’s Board
       Chairman that the new Board had failed to provide advance notification of the
       change in control of the institution, as required by the FDIC Rules and
       Regulations.

Notwithstanding the concerns noted above, prior to the July 2008 examination, examiners
determined that Integrity-Jupiter’s management was generally satisfactory and assigned
supervisory component ratings of “2” for management. Examiners considered
downgrading the management component rating to a “3” during the August 2005, June
2006, and June 2007 examinations. However, examiners concluded that the financial
condition of the institution during those examinations did not warrant a lower rating for
management. Based on the results of the July 2008 examination, OFR downgraded the
management component rating from a “2” to a “4,” and OFR, acting in coordination with
the FDIC, issued a C&D that included several management provisions.

Given the risks associated with the continued turnover of Integrity-Jupiter’s executive
officers, the tension among Board directors and management, and the institution’s newly-
chartered status, a stronger supervisory response at earlier examinations may have been
prudent. For example, the FDIC could have downgraded the institution’s supervisory
component rating for management as early as the August 2005 examination and required
that the institution develop a management succession plan at that time. Such action
would have helped to set an appropriate supervisory tenor of expectations with the Board
at an early point in the institution’s operation.

Supervisory Oversight of ADC Loan Concentration

Examiners first raised concerns about Integrity-Jupiter’s concentration risk management
practices in the August 2005 examination report. The report included a number of


                                            13
recommendations to develop and implement systems for identifying, monitoring, and
reporting asset concentrations, including setting appropriate concentration limits. The
June 2006 examination report noted that, although asset quality continued to remain
satisfactory, risks within the loan portfolio were increasing, primarily due to the
institution’s growing ADC concentration. At that time, Integrity-Jupiter’s ADC
concentration represented 279 percent of Tier 1 Capital. However, the examination
report also noted that Integrity-Jupiter’s management was committed to reducing its ADC
concentration.

The June 2007 examination report noted that the ADC concentration had increased to
346 percent of Tier 1 Capital, exposing the loan portfolio to heightened credit risk due to
the ongoing deterioration in the institution’s real estate lending markets. The report
contained a number of recommendations to strengthen the institution’s concentration risk
management practices. Among other things, the report recommended that Integrity-
Jupiter establish more detailed policy limits for its loan concentrations, significantly
improve its concentration monitoring practices, and establish contingency plans for
mitigating its concentration risks. Examiners determined that the institution’s asset
quality was generally satisfactory during the June 2007 examination, due in part to the
moderate level of classified assets. However, the FDIC requested that the institution
provide a written response to the examination report describing the actions taken or
planned to correct the noted deficiencies. Integrity-Jupiter provided a response on
January 25, 2008 stating that, among other actions, the institution had begun to take
measures to diversify its loan portfolio.

Integrity-Jupiter did, indeed, curtail its ADC lending activities following the June 2007
examination. However, by the time of the July 2008 examination, the institution’s ADC
loan concentration, coupled with a weakening real estate market, had translated into a
significant deterioration in the loan portfolio. Examiners downgraded Integrity-Jupiter’s
supervisory component rating for asset quality from a “2” to a “5” during the July 2008
examination and advised the Board that allowing the loan portfolio to be concentrated in
speculative loans was an unsafe and unsound practice.

A lesson learned with respect to Integrity-Jupiter’s ADC loan concentration is that early
and aggressive supervisory intervention is prudent. At the time of the June 2006
examination, Integrity-Jupiter’s capital position was well above the minimum threshold
for Well Capitalized institutions, the institution had no adversely classified assets, and
management indicated a commitment to addressing examiner recommendations. Under
such circumstances, the supervisory approach of making recommendations to address
Integrity-Jupiter’s growing concentration risk was reasonable. With the benefit of
hindsight, however, additional supervisory steps may have been prudent. Such steps
could have included requiring the institution to provide a written plan to address its
concentration risks and/or conducting a visitation prior to the June 2007 examination to
assess the institution’s progress in reducing its concentration risk.

In that regard, the FDIC issued guidance to its examiners on January 26, 2010 that
defines procedures for better ensuring that examiner concerns and recommendations are



                                            14
appropriately tracked and addressed. Specifically, the guidance defines a standard
approach for communicating matters requiring Board attention (e.g., examiner concerns
and recommendations) in examination reports. The guidance also states that examination
staff should request a response from the institution regarding the actions that it will take
to mitigate the risks identified during the examination and correct noted deficiencies.

Business Plan Deviation

The June 2007 examination report noted that Integrity-Jupiter held loan participations
from Integrity-Alpharetta totaling $22.1 million (or 144 percent of Tier 1 Capital).
According to the examination report, Integrity-Jupiter’s decision to purchase these loan
participations represented a material deviation from the institution’s business plan
because the plan limited Integrity-Jupiter’s lending activities to a 5-mile radius around
Jupiter. In addition, the business plan did not address loan participations. Further,
examiners noted that Integrity-Jupiter failed to notify the FDIC of the change in its
business plan as required by the FDIC’s order approving the institution’s deposit
insurance.

In retrospect, examiners should have raised concerns about Integrity-Jupiter’s deviation
from its business plan as early as the August 2005 examination. At that time, Integrity-
Jupiter held over $10 million in out-of-territory loan participations from Integrity-
Alpharetta and planned to continue purchasing loan participations as a means of growing
the loan portfolio. The deviation should have been the subject of corrective action on the
part of Integrity-Jupiter’s Board and management. For example, examiners could have
recommended that Integrity-Jupiter update its business plan to address out-of-territory
loan participations provided that appropriate internal controls (including due diligence
procedures, management expertise, and out-of-territory market analysis) were
implemented to manage the risk associated with this type of lending.

In recognition of the elevated risk that newly chartered institutions pose to the DIF, the
FDIC issued Financial Institution Letter (FIL)-50-2009, entitled Enhanced Supervisory
Procedures For Newly Insured FDIC-Supervised Depository Institutions, dated
August 28, 2009. The FIL states that recent supervisory experience has identified
common issues with troubled or failed de novo institutions, such as weak risk
management practices, asset concentrations without compensatory management controls,
and significant deviations from business plans. To better address such risks, the FIL
extends the de novo period for newly-chartered institutions from 3 to 7 years for purposes
of on-site examinations, capital maintenance, and other requirements, including that
institutions obtain prior approval from the FDIC before making material changes in their
business plans.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325, Capital Maintenance, of the FDIC Rules
and Regulations implements the requirements of PCA by establishing a framework of
restrictions and mandatory supervisory actions that are triggered based on an institution’s


                                             15
capital levels. Based on the supervisory actions taken with respect to Integrity-Jupiter,
the FDIC properly implemented applicable PCA provisions of section 38 of the FDI Act.
However, PCA’s role in the failure of Integrity-Jupiter was limited because capital was a
lagging indicator of the institution’s financial health. Table 3 illustrates Integrity-
Jupiter’s capital levels relative to the PCA thresholds for Well Capitalized institutions for
the quarters ended March 31, 2009 and June 30, 2009, and for the 4 preceding calendar
years.

Table 3: Integrity-Jupiter’s Capital Levels
                         Tier 1        Tier 1 Risk-    Total Risk-
 Period Ended            Leverage      Based           Based         PCA Capital Category
                         Capital       Capital         Capital
 Well Capitalized       5% or more     6% or more      10% or more
 Thresholds
 Integrity's Capital Levels
       Dec – 05             21.22         21.25           22.05      Well Capitalized
       Dec – 06             14.47         15.54           16.45      Well Capitalized
       Dec – 07             11.10         12.07           13.34      Well Capitalized
       Dec – 08             7.07          9.04            10.30      Well Capitalized
       Mar – 09             4.03          5.36            6.62       Undercapitalized
       Jun – 09             -1.26         -1.79           -1.79      Critically Undercapitalized
Source: UBPRs for Integrity-Jupiter.

As previously discussed, OFR issued a C&D on November 14, 2008 that included a
capital provision. Specifically, the C&D directed Integrity-Jupiter to maintain minimum
capital ratios that were higher than those required for Well Capitalized institutions and to
submit a capital plan for maintaining those higher ratios within 30 days of the order.
Integrity-Jupiter provided OFR with a capital plan on December 16, 2008. The plan
called for raising as much as $7 million in new capital. However, the institution’s efforts
in this regard were not successful. Based on updated financial information obtained by
OFR on March 16, 2009, OFR determined that the institution would likely become
Critically Undercapitalized by the end of March 2009. As a result, OFR issued a capital
call letter on March 17, 2009 directing the institution to raise its Tier 1 Capital ratio to not
less than 6 percent by April 15, 2009.

Based on Integrity-Jupiter’s Call Report for the quarter ended March 31, 2009, the
institution fell from Well Capitalized to Undercapitalized. On April 6, 2009, the FDIC
and OFR performed a joint visitation of Integrity-Jupiter and determined that the
institution’s reported capital position was overstated. After adjusting for losses identified
during the visitation, examiners determined that the institution’s capital position was
actually Critically Undercapitalized. Integrity-Jupiter’s management disagreed with the
severity of the examiners’ classifications and ordered new appraisals for certain
properties. However, when the new appraisals were received and reviewed by OFR in
June 2009, examiners confirmed that the institution was Critically Undercapitalized.

The FDIC formally notified Integrity-Jupiter on May 4, 2009 that, based on its Call
Report for the quarter ended March 31, 2009, the institution was considered


                                                  16
Undercapitalized. The notification included a reminder that the institution was subject to
certain restrictions and requirements defined under section 38, including the submission
of a capital restoration plan. Integrity-Jupiter submitted a capital restoration plan to the
FDIC on June 19, 2009. However, the FDIC determined that the plan significantly
underestimated the amount of capital that the institution needed and was deficient in
many other respects. An FDIC official verbally notified Integrity-Jupiter on July 6, 2009
that its capital plan was unacceptable. OFR closed Integrity-Jupiter on July 31, 2009
because the institution was unable to raise sufficient capital to support its operations or
find a suitable acquirer.


Corporation Comments
We issued a draft of this report on February 11, 2010. DSC management subsequently
provided us with additional information for our consideration. We made certain changes
to the report that we deemed appropriate based on the information that DSC management
provided. On February 24, 2010, the Director, DSC, provided a written response to the
draft report. The response is presented in its entirety as Appendix 5 of this report.

In its response, DSC reiterated the OIG’s conclusions regarding the causes of Integrity-
Jupiter’s failure and cited several supervisory activities, discussed in the report, that were
undertaken to address risks at the institution prior to its failure. DSC also noted that it
had recently issued guidance to institutions and examiners extending the de novo period
for newly-chartered institutions from 3 to 7 years and had established procedures to more
formally communicate and follow up on risks and deficiencies identified during
examinations.




                                              17
                                                                                        Appendix 1

                    Timeline of Key Management Events


Date                 Management Event

July 12, 2004        Integrity-Jupiter opens for business.

September 1, 2004    A director on Integrity-Jupiter’s Board resigns.

October 21, 2004     A second director on Integrity-Jupiter’s Board resigns.

                     The February 2005 examination report notes that Integrity-Jupiter has been
February 7, 2005     operating without an SLO.

April 25, 2005       A third director on Integrity-Jupiter’s Board resigns. In addition, Integrity-
                     Jupiter hires an SLO.

                     Integrity-Jupiter’s President and CEO resigns. Executive officers of Integrity-
May 23, 2005         Alpharetta begin traveling to Integrity-Jupiter to help manage the institution.

August 18, 2005      Integrity-Jupiter’s Board re-appoints two former directors.

                     OFR raises concern with Integrity-Jupiter’s Board Chairman that, based on
August 22, 2005      information obtained during the FDIC’s ongoing examination, the directors and
                     officers of Integrity-Alpharetta appear to be managing Integrity-Jupiter.

                     Integrity-Jupiter’s Board Chairman advises OFR that the Board is in full
August 26, 2005      control of the institution and agrees to establish a written agreement describing
                     the services acquired from Integrity-Alpharetta.

                     OFR advises Integrity-Jupiter’s Board of its continuing concern that the
February 2, 2006     institution is operating without the leadership of a President and CEO.

                     Integrity-Jupiter’s SLO is promoted to President and CEO, but retains the
May 18, 2006         duties of SLO until an SLO replacement is found.

                     The June 2006 examination report notes concern about the undue influence that
June 19, 2006        Integrity-Alpharetta had over Integrity-Jupiter’s activities.

July 16, 2007        Integrity-Jupiter hires an SLO.

December 7, 2007     One of Integrity-Jupiter’s Board directors resigns for a second time.

                     A special shareholder action results in the removal of six existing Board
December 12, 2007    directors and the appointment of four new directors at Integrity-Jupiter.

                     OFR visits Integrity-Jupiter to assess the change in Board control and to hand
                     deliver a letter demanding the submission of a completed Application for
January 24, 2008
                     Certificate of Approval to Purchase or Acquire a Controlling Interest in a State
                     Bank or Trust Company.




                                               18
                                                                                          Appendix 1

                       Timeline of Key Management Events


Date                    Management Event

                        Former directors of Integrity-Jupiter’s Board request that OFR deny the new
February 15, 2008       Board’s application for a change in control or schedule a hearing wherein the
                        merits of the application can be disputed.

                        The FDIC conducts an on-site visitation of Integrity-Jupiter to assess the
February 21-22, 2008    management situation at the institution.

                        Integrity-Jupiter’s Board Chairman sends a letter to shareholders responding to
April 4, 2008           concerns raised by former Board directors regarding the change in control of
                        the institution.

April 10, 2008          Two directors of Integrity-Jupiter’s Board resign.

May 22, 2008            Integrity-Jupiter’s President and CEO resigns.

July 17, 2008           Integrity-Jupiter’s SLO is promoted to President and CEO.

                        The July 2008 examination report lowers Integrity-Jupiter’s supervisory
September 15, 2008      component rating for management from a “2” to a “4.”

                        OFR issues a C&D requiring, among other things, that Integrity-Jupiter’s
                        Board (1) identify and recruit new Board directors with sufficient expertise to
November 14, 2008       return the institution to a safe and sound condition, (2) engage an outside firm
                        to review the institution’s management, and (3) prepare a management
                        succession plan for all key officers.

                        Integrity-Jupiter’s President and CEO provides the Board with a 30-day notice
January 21, 2009        of resignation.

                        Based on the results of the April 2009 visitation, examiners lower Integrity-
April 6, 2009           Jupiter’s supervisory component rating for management from a “4” to a “5.”

April 15, 2009          A director on Integrity-Jupiter’s Board resigns.

                        OFR advises Integrity-Jupiter’s Board Chairman that the institution is
June 19, 2009           “imminently insolvent,” as that term is defined in the Florida statutes.

                        Integrity-Jupiter’s Board passes a resolution consenting to the appointment of
June 25, 2009           the FDIC as receiver for the institution.

July 30, 2009           A director on Integrity-Jupiter’s Board resigns.

July 31, 2009           OFR closes Integrity-Jupiter.




                                                  19
                                                                                 Appendix 2

                      Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency, reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of Integrity-Jupiter’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of Integrity-
Jupiter, including the FDIC’s implementation of the PCA provisions of section 38 of the
FDI Act.

We conducted this performance audit from October 2009 to February 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit focused on Integrity-Jupiter’s business operations from 2004 until
its failure on July 31, 2009. Our work also included an evaluation of the regulatory
supervision of the institution during this same time period.

To accomplish the objectives, we performed the following procedures and techniques:

     •   Analyzed examination reports issued by the FDIC and OFR between 2004 and
         2009.

     •   Reviewed the following:

           •   Institution data and correspondence maintained in DSC’s Atlanta Regional
               Office and South Florida Field Office.

           •   Relevant reports prepared by the Division of Resolutions and Receiverships
               and DSC’s Washington, D.C. Office staff relating to the institution’s failure.

           •   Pertinent FDIC regulations, policies, procedures, and guidance.




                                               20
                                                                               Appendix 2

                    Objectives, Scope, and Methodology

   •   Interviewed DSC examination staff in the Washington, D.C. Office, the Atlanta
       Regional Office, and South Florida Field Office.

   •   Met with OFR examiners and managers to obtain their perspectives and discuss
       their role in the supervision of the institution.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, examination
reports, and interviews of examiners to understand Integrity-Jupiter’s management
controls pertaining to causes of failure and material loss as discussed in the body of this
report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that was used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and the FDIC Rules and Regulations.
The results of our tests were discussed, where appropriate, in the report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.




                                             21
                                                                                 Appendix 3

                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) through the following three categories: Substandard, Doubtful,
                    and Loss.
Affiliate           Under section 23A of the Federal Reserve Act (12 U.S.C. 371c), an
                    affiliate generally includes, among other things, a bank subsidiary, or a
                    company that (1) controls the bank and any other company that is
                    controlled by the company that controls the bank, (2) is sponsored and
                    advised on a contractual basis by the bank, or (3) is controlled by or for
                    the benefit of shareholders who control the bank or in which a majority
                    of directors hold similar positions in the bank. Under the Bank Holding
                    Company Act (12 U.S.C. 1841), an affiliate is generally any company
                    (to include banks) that controls, is controlled by, or is under common
                    control with another company. “Control” is defined, in general, in a
                    similar manner under both statutes to mean the power to vote 25 percent
                    of any class of voting securities, or to control the election of a majority
                    of directors of, the bank or company. Both statutes contain various
                    restrictions or limitations on certain transactions or applications of
                    affiliated entities.
Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the
                    extent not provided for in a separate liability account, the ALLL should
                    also be sufficient to absorb estimated loan losses associated with off-
                    balance sheet loan instruments such as standby letters of credit.
Call Report         Reports of Condition and Income, often referred to as Call Reports,
                    include basic financial data for insured commercial banks in the form of
                    a balance sheet, an income statement, and supporting schedules.
                    According to the Federal Financial Institutions Examination Council’s
                    (FFIEC) instructions for preparing Call Reports, national banks, state
                    member banks, and insured nonmember banks are required to submit a
                    Call Report to the FFIEC’s Central Data Repository (an Internet-based
                    system used for data collection) as of the close of business on the last
                    day of each calendar quarter.
Cease and Desist    A formal enforcement action issued by financial regulators to a bank or
Order (C&D)         affiliated party to stop an unsafe or unsound practice or violation. A
                    C&D may be terminated when the bank’s condition has significantly
                    improved and the action is no longer needed or the bank has materially
                    complied with its terms.




                                            22
                                                                                Appendix 3

                            Glossary of Terms

Term            Definition
Change in       Section 658.28, Acquisition of Control of a Bank or Trust Company, of
Control         the Florida statutes states that any person or group of persons, acting
                directly or indirectly, or by or through one or more persons, proposing to
                purchase or acquire a controlling interest in any state bank or state trust
                company, and thereby to change the control of that bank or trust
                company, shall first make application to OFR for a certificate of
                approval of such proposed change in control. OFR issues a certificate of
                approval only after it has made an investigation and determined that the
                proposed new owner(s) are qualified by reputation, character,
                experience, and financial responsibility to control and operate the bank
                or trust company in a legal and proper manner and that the interests of
                the other stockholders, if any, and the depositors and creditors of the
                bank or trust company and the interests of the public generally will not
                be jeopardized by the proposed change in control.

                Subpart E of Part 303 of the FDIC Rules and Regulations, implementing
                section 7(j) of the FDI Act, also defines procedures for submitting
                advance notice to the FDIC for acquiring control of an insured state
                nonmember institution. Such transactions typically require 60 days prior
                written notice to the FDIC.
Concentration   A significantly large volume of economically related assets that an
                institution has advanced or committed to a certain industry, person,
                entity, or affiliated group. These assets may, in the aggregate, present a
                substantial risk to the safety and soundness of the institution if not
                properly managed.

De Novo         Prior to the issuance of FIL-50-2009 on August 28, 2009, and for the
Institution     purposes of FDIC-supervised institutions, this term referred to an
                institution within its first 3 years of operation. FIL-50-2009 changed the
                de novo period for newly-chartered FDIC-supervised institutions from
                3 years to 7 years. Under the new de novo period, institutions must
                undergo a limited-scope examination within the first 6 months of
                operation, and a full-scope examination within the first 12 months of
                operation. Subsequent to the first examination, and through the 7th year
                of operation, institutions remain on a 12-month examination cycle.
                Extended examination intervals (i.e., 18-month intervals) do not apply
                during the de novo period.

Imminently      The term is defined under Florida statute as a condition in which a
Insolvent       financial institution has total capital accounts, or equity in the case of a
                credit union, of less than 2 percent of its total assets, after adjustment for
                apparent losses.




                                         23
                                                                                    Appendix 3

                               Glossary of Terms

Term               Definition
Insolvent          The term is defined under Florida statute as a condition in which (1) the
                   capital accounts, or equity in the case of a credit union, and all assets of
                   a financial institution are insufficient to meet liabilities; (2) the financial
                   institution is unable to meet current obligations as they mature, even
                   though assets may exceed liabilities; or (3) the capital accounts, or
                   equity in the case of a credit union, of a financial institution are
                   exhausted by losses and no immediate prospect of replacement exists.
Interest Reserve   An interest reserve account allows a lender to periodically advance loan
Account            funds to pay interest charges on the outstanding balance of a loan. The
                   interest is capitalized and added to the loan balance. ADC loans often
                   include an interest reserve to carry the project from origination to
                   completion and may cover the project’s anticipated sell-out or lease-up
                   period.
President and      An executive officer responsible for the day-to-day executive
CEO                management and strategic and capital planning for the institution. The
                   President and CEO is also responsible for reviewing and responding to
                   audit reports, management letters, and examination reports.
Prompt             The purpose of PCA is to resolve the problems of insured depository
Corrective         institutions at the least possible long-term cost to the DIF. Part 325,
Action (PCA)       subpart B, of the FDIC Rules and Regulations, 12 C.F.R., section
                   325.101, et. seq., implements section 38, Prompt Corrective Action, of
                   the FDI Act, 12 United States Code section 1831(o), by establishing a
                   framework for taking prompt supervisory actions against insured
                   nonmember banks that are less than adequately capitalized. The
                   following terms are used to describe capital adequacy: (1) Well
                   Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                   (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.
Senior Lending     An executive officer typically responsible for overseeing all aspects of
Officer (SLO)      an institution’s lending activities, including planning, organizing, and
                   directing loan production and administration, credit review, and
                   collection activities and ensuring that all such activities are conducted
                   profitably and in compliance with applicable law.
Uniform Bank       The UBPR is an analysis of an institution’s financial data and ratios that
Performance        includes extensive comparisons to peer groups. The report is produced
Report (UBPR)      by the Federal Financial Institutions Examination Council for use by
                   regulators, bankers, and the general public. UBPRs are produced
                   quarterly from data contained in Call Reports.

Young              A term that formerly referred to institutions in their 4th through 9th year
Institution        of operation.




                                             24
                                                              Appendix 4
                          Acronyms


ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk
CEO      Chief Executive Officer
CFR      Code of Federal Regulations
CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FFIEC    Federal Financial Institutions Examination Council
FIL      Financial Institution Letter
GMS      Growth Monitoring System
OFR      Office of Financial Regulation
OIG      Office of Inspector General
PCA      Prompt Corrective Action
SCOR     Statistical CAMELS Offsite Rating
SLO      Senior Lending Officer
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System
U.S.C.   United States Code




                                25
                                                                                 Appendix 5
                                    Corporation Comments




Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                Division of Supervision and Consumer Protection

                                                                February 24, 2010

TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:         Draft Audit Report Entitled, Material Loss Review of Integrity Bank, Jupiter,
                 Florida (Assignment 2009-070)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of Integrity
Bank, Jupiter, Florida (Integrity-Jupiter) which failed on July 31, 2009. This memorandum is the
response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft
Report (Report) received on February 11, 2010.

The Report concludes that Integrity-Jupiter’s failure was primarily due to ineffective oversight
by its Board and management. The Board and management did not effectively manage the risk
associated with Integrity-Jupiter’s heavy concentration in acquisition, development and
construction (ADC) loans, coupled with underwriting and administration weaknesses,
particularly with respect to out-of-territory loan participations acquired from Integrity Bank,
Alpharetta, Georgia.

The FDIC and the Florida Office of Financial Regulation (OFR) provided ongoing supervisory
oversight of Integrity-Jupiter with five on-site risk management examinations, three visitations,
and offsite monitoring during the five years that the institution was in operation. Examiners first
raised concern about Integrity-Jupiter’s concentration risk management practices at the August
2005 examination. The examination report included a number of recommendations, including
setting appropriate concentration limits. The June 2007 examination noted an increased ADC
concentration, exposing the loan portfolio to heightened credit risk due to the ongoing
deterioration in the institution’s real estate lending markets. The examination report made a
number of recommendations to strengthen the institution’s concentration risk management
practices. The Report states that the FDIC’s supervisory approach for addressing Integrity-
Jupiter’s ADC concentration was reasonable.

DSC recently issued guidance to institutions and examiners to address the types of risks that
existed at Integrity-Jupiter. In recognition of the elevated risk that newly-chartered institutions
pose, the de novo period has been extended from 3 to 7 years and de novo institutions are
required to obtain advance approval of material changes in business plans. DSC has also
established procedures to more formally communicate and follow up on risks and deficiencies
identified during examinations.

Thank you for the opportunity to review and comment on the Report.



                                                  26
